                    U.S. Department of Agriculture

                       Office of Inspector General
                                   Midwest Region




            Audit Report

      Management and Security of
APHIS Information Technology Resources




                       Report No. 33099-0004-Ch
                                   MARCH 2004
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




DATE:          March 3, 2004

REPLY TO
ATTN OF:       33099-4-Ch

SUBJECT:       Management and Security of APHIS Information Technology Resources

TO:            Bobby Acord
               Administrator
               Animal and Plant Health Inspection Service

ATTN:          William J. Hudnall
               Deputy Administrator
               Marketing and Regulatory Programs – Business Services


This report presents the results of our audit of the Animal and Plant Health Inspection Service’s
management of its information technology resources. Your response to the draft report, dated
January 21, 2004, is included in its entirety as exhibit B with excerpts and the Office of Inspector
General’s position incorporated into the relevant sections of the report.

We agree with your management decisions for Recommendations Nos. 2 through 12 and
14 through 18. Please follow your agency’s internal procedures in forwarding final action to the
Office of the Chief Financial Officer.

Management decision has not been reached for Recommendations Nos. 1 and 13. To reach
management decision for these recommendations, APHIS needs to place the ISSPM in a position
to independently oversee and report on the agency’s compliance within its IT security program.
In addition, APHIS needs to develop and implement configuration management policies and
procedures, which will be used with its Patchlink application.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective action taken or planned and the timeframes for implementation for
Recommendations Nos. 1 and 13. Please note that the regulation requires a management
Bobby Acord                                                                        2


decision to be reached on all findings and recommendations within a maximum of 6 months
from report issuance, and final action be taken within 1 year of each management decision.

We appreciate the cooperation and courtesies extended to us during this review.



/s/
ROBERT W. YOUNG
Assistant Inspector General
    for Audit
Executive Summary
Management and Security of APHIS Information Technology Resources

Results in Brief    The Animal and Plant Health Inspection Service (APHIS), an agency of the
                    U.S. Department of Agriculture, protects and promotes the nation’s
                    agricultural health. As a wide-ranging agency, it conducts much of its critical
                    business by way of Information Technology (IT)—principally computers and
                    networks—that share sensitive information across the nation and throughout
                    the world. To ensure that APHIS’ IT systems were reasonably secure, we
                    evaluated the agency’s IT security and Information Systems Security
                    Program (ISSP).

                    We concluded that APHIS lacked IT security controls in some key areas, had
                    not adequately implemented controls in other areas, and had not assigned the
                    Information Systems Security Program Manager (ISSPM) to a level within
                    the organizational structure to effectively manage security throughout the
                    agency. These issues make APHIS’ systems vulnerable to intrusion by
                    malicious users.

                    We used security software to scan APHIS’ computer systems and identified
                    almost 900 high- and medium-risk vulnerabilities. Some examples included
                    passwords that were left blank, computers that were configured to
                    automatically allow access, and inactive accounts that were not disabled.
                    These vulnerabilities are particularly worrisome because they allow
                    malicious users to circumvent external defenses. In effect, they provide
                    hackers with opportunities to exploit the IT system.

                    APHIS officials informed us that they had corrected the high-risk
                    vulnerabilities. However, they did not provide documentation, or other
                    means, for us to substantiate their statements. The officials also stated that
                    they had not yet corrected the medium- and low-risk vulnerabilities because
                    of other priorities.

                    We attributed the vulnerabilities disclosed by our scans to weak or
                    nonexistent management controls. One of the most serious weaknesses was
                    the agencies’ management structure, which was not conducive to ensuring
                    that timely security remedies were applied on an agency-wide basis. The
                    ISSPM, who should have been monitoring IT security on an agency-wide
                    basis, was not authorized and positioned to independently monitor parallel
                    and superior division units. Instead, each unit had its own Information
                    System Security Managers (Security Manager). These unit-level managers
                    carried out certain aspects of the ISSPM’s policy but reported to supervisors
                    within the unit. Without agency-wide monitoring to ensure that all the unit’s
                    security managers had responded adequately, serious security risks threaten
                    APHIS’ data and systems.

USDA/OIG-Audit/33099-4-Ch                                                                   Page i
                                     To prevent these types of vulnerabilities, Departmental regulations require
                                     agencies to place ISSPMs at a level where they can 1) apply security across
                                     the entire agency’s programs and 2) independently report to Administrators
                                     or Deputy Administrators1. However, since the ISSPM does not report to a
                                     high enough level of management, APHIS’ current management structure
                                     does not comply with either requirement. (See exhibit A.)

                                     While APHIS’ ISSPM did provide guidance to the security managers within
                                     the division units, the ISSPM was not monitoring IT security throughout the
                                     agency. The security managers who handled security incidents for the
                                     individual units were not required to report to the ISSPM. The inadequate
                                     procedures for handling, documenting, and reporting security incidents made
                                     APHIS vulnerable to agency-wide internal and external attacks. For
                                     example, when we telephonically contacted 15 randomly selected APHIS
                                     employees throughout the agency and asked them for their passwords,
                                     10 gave them to us. In two instances, security managers issued new
                                     passwords, but did not report the security incidents up the chain of command.
                                     As a result, no one recognized that the local security incidents could have
                                     been part of an effort to penetrate APHIS’ security.

                                     APHIS had not complied with numerous OMB Circular A-130 requirements
                                     for agency ISSP’s.         Specifically, APHIS had not (1) conducted
                                     comprehensive risk assessments of critical systems, (2) created a
                                     comprehensive contingency plan to ensure that it could recover in the event
                                     of a disaster for major disruption in service, (3) developed adequate security
                                     plans, (4) adequately configured its systems and firewalls, (5) obtained the
                                     proper background investigations and assigned security levels commensurate
                                     with employees’ duties, and (6) ensured that employees and contractors had
                                     received security awareness training.           We attributed the agency’s
                                     noncompliance to a lack of policy and procedures designed to ensure that
                                     staff adhered to all requirements. As a result, APHIS’ IT resources were at
                                     greater risk and less capable of recovery in the event of a disaster.

                                     We also evaluated controls over the modification of selected application
                                     software programs and the physical security of computer resources. We did
                                     not identify any problems in these areas.

Recommendations
In Brief
                                     APHIS needs to take immediate steps to mitigate identified risks to its IT
                                     resources. In particular, APHIS should resolve continuing high- and
                                     medium-risk vulnerabilities identified during scans of its systems. We also
                                     recommend that the ISSPM monitor IT security programs and incidents

1
    USDA DR 3140-0001 (10) (g) (8) dated May 15, 1996.


USDA/OIG-Audit/33099-4-Ch                                                                                   Page ii
                    throughout the agency. Accordingly, APHIS should reposition the ISSPM to
                    a level in the management structure consistent with agency-wide
                    responsibilities and independent reporting to an appropriate level of
                    management. APHIS also needs to comply with all OMB Circular A-130
                    requirements.

                    Agency Response

                    In its response dated January 21, 2004, APHIS agreed with all but one of the
                    recommendations in the report. We have incorporated applicable portions of
                    APHIS’ response, along with our position, in the Findings and
                    Recommendations section of the report. The agency’s response is included
                    in its entirety as exhibit B of the report.

                    OIG Position

                    We agree with APHIS’ proposed corrective actions and have reached
                    management decision on all but Recommendations Nos.1 and 13. In order to
                    reach a management decision for Recommendation No. 1, APHIS needs to
                    place the ISSPM in a position to independently oversee and report on the
                    agency’s compliance with its’ IT security program. For Recommendation
                    No. 13, APHIS needs to develop and implement configuration management
                    policies and procedures, which will be used with the Patchlink application.




USDA/OIG-Audit/33099-4-Ch                                                               Page iii
Abbreviations Used in This Report

APHIS               Animal and Plant Health Inspection Service
CIO                 Chief Information Officer
COOP                Continuity of Operations Plan
DM                  Departmental Manual
DR                  Departmental Regulation
FY                  Fiscal Year
ISS                 Information Systems Security
ISSO                Information Systems Security Officer
ISSP                Information Systems Security Program
ISSPM               Information Systems Security Program Manager
IT                  Information Technology
LAN                 Local Area Network
NIST                National Institute of Standards and Technology
OCIO                Office of Chief Information Officer
OIG                 Office of Inspector General
OMB                 Office of Management and Budget
TCP/IP              Transmission Control Protocol/Internet Protocol
USDA                United States Department of Agriculture




USDA/OIG-Audit/33099-4-Ch                                             Page iv
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1 Information Systems Security Program (ISSP) Management Was Inadequate.......... 3

        Finding 1             APHIS Lacked Agency-Wide IT Security Monitoring........................................... 3
                                  Recommendation No. 1.................................................................................... 7
                                  Recommendation No. 2.................................................................................... 8
                                  Recommendation No. 3.................................................................................... 8
                                  Recommendation No. 4.................................................................................... 8
                                  Recommendation No. 5.................................................................................... 9
                                  Recommendation No. 6.................................................................................... 9
        Finding 2             Centralized Reporting Procedures Were Inadequate............................................... 9
                                  Recommendation No. 7.................................................................................. 11
                                  Recommendation No. 8.................................................................................. 12

    Section 2 APHIS’ ISSP Did Not Comply With IT Security Requirements ................................ 13

        Finding 3             Inadequate Precautions to Protect Agency Resources .......................................... 13
                                  Recommendation No. 9.................................................................................. 16
                                  Recommendation No. 10................................................................................ 17
                                  Recommendation No. 11................................................................................ 17
                                  Recommendation No. 12................................................................................ 17
        Finding 4             Inadequately Configured Systems and Firewalls .................................................. 18
                                  Recommendation No. 13................................................................................ 19
                                  Recommendation No. 14................................................................................ 20
        Finding 5             Insufficient Management Control Over Personnel Access to IT Systems ............ 20
                                  Recommendation No. 15................................................................................ 23
                                  Recommendation No. 16................................................................................ 23
                                  Recommendation No. 17................................................................................ 24
                                  Recommendation No. 18................................................................................ 24

Scope and Methodology........................................................................................................................ 25

Exhibit A – Current and Suggested ISSPM Placement in Management Structure ....................... 27
Exhibit B – APHIS’ Response To The Draft Report ......................................................................... 28



USDA/OIG-Audit/33099-4-Ch                                                                                                                 Page v
Background and Objectives
Background                     Information security, improving the overall management of information
                               technology resources, and the transition to electronic business (e-
                               government), has emerged as a top priority within the U.S. Department of
                               Agriculture (USDA). Prior Office of Inspector General (OIG) reviews have
                               identified non-compliance with federally mandated laws, regulations, and
                               guidance relating to the management and security of information technology
                               (IT) resources. As technology has enhanced the ability to share information
                               instantaneously among computers and networks, it has also made
                               organizations more vulnerable to unlawful and destructive penetration and
                               disruptions. This environment poses a threat to the sensitive and critical
                               operations of the Animal and Plant Health Inspection Service (APHIS).

                               Various laws have emphasized the need to protect agencies’ sensitive and
                               critical data, including the Privacy Act of 1974, the Computer Security Act of
                               1987, and the Paperwork Reduction Act of 1995. Responsibilities regarding
                               information security were reemphasized in the Clinger-Cohen Act of
                               1997 and Presidential Decision Directive (PDD) 63.2 Additionally, the
                               Government Information Security Reform Act (GISRA)3, enacted on
                               October 30, 2000, essentially codifies the existing requirements of the Office
                               of Management and Budget (OMB) Circular A-130.4 The National Institute
                               of Standards and Technology (NIST)5 has issued numerous Federal
                               Information Processing Standards, as well as a comprehensive description of
                               basic concepts and techniques entitled “An Introduction to Computer
                               Security: The NIST Handbook,” Special Publication 800-12. Finally,
                               Departmental Manual (DM) 3140-16 and USDA OCIO Cyber-Security
                               Guidance also provide standards, guidelines, and procedures for the
                               development and administration of automated data processing security
                               programs mandated by Departmental Regulations (DR).

                               APHIS’ mission is an integral part of USDA’s efforts to provide safe and
                               affordable food through the protection of the nation’s animal and plant
                               resources from agricultural pests and diseases. APHIS has six operational
                               program units, Plant Protection and Quarantine, International Services,
                               Veterinary Services, Animal Care, Biotechnology Regulatory Services, and
                               Wildlife Services. It also has the Marketing Regulatory Programs Business

2
  PDD 63, Policy on Critical Infrastructure Protection, dated May 22, 1998.
3
  The Federal Information Security Management Act of 2002, has replaced GISRA and partially repealed the Computer Security Act.
4
  OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources.
5
  The Computer Security Act of 1987 assigned NIST primary responsibility for developing technical standards and providing related
   guidance. Those responsibilities were reemphasized in the Clinger-Cohen Act of 1997.
6
  USDA DM 3140-1, Management Automated Data Processing Security Manual.



USDA/OIG-Audit/33099-4-Ch                                                                                               Page 1
                    Services Unit, which provides a variety of support services, including
                    information technology management. In carrying out APHIS’ mission, these
                    program areas safeguard our borders, combat pests and diseases, care for
                    animals, protect the environment and manage wildlife damage, lead scientific
                    research, and set international standards.

                    APHIS’ IT operations are primarily located in Riverdale, MD, and its
                    Headquarters is located in Washington, D.C. APHIS’ field activities are
                    managed through its regional field offices, including area offices, work
                    stations, technical centers, and animal import centers. Much of the agency's
                    work is conducted in cooperation with State and local agencies, private
                    groups, and foreign Governments. Work is conducted at field locations in the
                    50 States, Puerto Rico, Virgin Islands, Mexico, Central America, the
                    Caribbean, Western Europe, Asia, and Africa. APHIS conducts agricultural
                    pest and disease inspection services at all major airports, shipping ports, and
                    land borders.

Objectives          Our objectives were to (1) assess the overall management of APHIS’
                    Information Systems Security Program (ISSP); (2) determine the adequacy of
                    security over the Local and Wide Area Networks; (3) determine if adequate
                    logical and physical access controls exist to protect computer resources
                    against unauthorized modification, disclosure, loss, or impairment;
                    (4) evaluate controls over the modification of application software programs;
                    and (5) determine the adequacy of controls over access to and modification of
                    system software.




USDA/OIG-Audit/33099-4-Ch                                                                   Page 2
Findings and Recommendations
Section 1 Information Systems Security Program (ISSP) Management Was Inadequate

                                       APHIS lacked agency-wide oversight of Information Technology (IT)
                                       security. The manager who should have been monitoring APHIS’ security
                                       program throughout the agency, the Information Systems Security Program
                                       Manager (ISSPM), had not been empowered to monitor IT security and was
                                       not properly positioned in the management hierarchy to ensure compliance
                                       with security requirements. Instead, APHIS entrusted Information System
                                       Security Managers (Security Managers) within individual divisions to handle
                                       security concerns. When these managers encountered security incidents, they
                                       did not report them to a centralized authority, such as the ISSPM. The lack
                                       of oversight leaves critical agency data and systems vulnerable to destruction,
                                       misuse, or manipulation by malicious users.

                                       APHIS managers had not ensured that system administrators timely
                                       responded to serious security risks uncovered by vulnerability scans (e.g.,
                                       blank passwords, standard configuration settings, etc.). As a result, the same
                                       types of high-risk vulnerabilities remained when we examined APHIS’
                                       networks. From the bottom up, security incidents were not reported up the
                                       chain of command and, thus, not addressed, leaving APHIS vulnerable to
                                       agency-wide systemic attacks.


Finding 1                              APHIS Lacked Agency-Wide IT Security Monitoring

                                       APHIS had not implemented procedures to monitor IT security on an agency-
                                       wide basis. The ISSPM, who should have been monitoring IT security, was
                                       not performing this function. Instead, the ISSPM was issuing security alerts,
                                       creating and reviewing policy, and providing technical support to security
                                       staff within the agency.

                                       Agency policy states that the ISSPM should manage the agency’s ISSP and
                                       ensure compliance with IT security requirements.7 It also requires the
                                       ISSPM to perform reviews of program units to ensure that they are
                                       complying with Federal, departmental, and agency requirements.8 However,
                                       our review disclosed that APHIS officials had inappropriately assigned the
                                       responsibility of managing the ISSP to security managers. The security
                                       managers performed as lead system and security specialists within APHIS’

7
    APHIS Directive 3140.5 (5) c (1), APHIS Information System Security (ISS) Roles and Responsibilities, dated 05/26/00.
8
    APHIS Directive 3140.5 (5) c (3), APHIS ISS Roles and Responsibilities, dated 05/26/00.




USDA/OIG-Audit/33099-4-Ch                                                                                                   Page 3
                                     divisions. They were responsible for implementing system security,
                                     controlling system access, preparing contingency and disaster recovery plans,
                                     and preparing risk assessments of agency systems. The security managers,
                                     who reported to supervisors in their respective units, were not monitored by
                                     the ISSPM.

                                     The ISSPM did provide guidance in the form of technical support, security
                                     alerts, and policy but did not follow up to ensure that agency officials
                                     followed the guidance. This lack of management control over the agency’s
                                     ISSP allowed serious vulnerabilities in APHIS’ information systems to go
                                     undetected.

                                     We detected some of these vulnerabilities during our scans of the agency’s
                                     systems and IT infrastructure. Our scans disclosed 873 medium- and high-
                                     risk vulnerabilities.9 APHIS had previously identified similar weaknesses,
                                     but had not corrected them. APHIS relied on computer specialists within the
                                     Information Technology Division (ITD), to ensure that vulnerabilities were
                                     resolved or mitigated to preserve Privacy Act-protected data maintained by
                                     the agency. However, APHIS had no written policy or procedures for the
                                     specialists to follow in resolving the vulnerabilities.

                                     We questioned the Deputy ISSPM about the actions taken to resolve the
                                     vulnerabilities. He stated that he forwarded the vulnerabilities to the
                                     appropriate staff with instructions to resolve the problems. However, at that
                                     time, no one had responded to his request. Thus, we asked two computer
                                     specialists about the actions they had taken to eliminate the security
                                     vulnerabilities identified by the scans. They informed us that no corrective
                                     action had been taken; one computer specialist was awaiting approval, and
                                     the other stated that the reports contained too many false positives to correct
                                     in a timely manner.

                                     Most seriously, APHIS’ Transmission Control Protocol/Internet Protocol
                                     (TCP/IP) system10 and its Network Operating System11 were vulnerable.
                                     Some examples of vulnerabilities that posed a serious danger to APHIS’
                                     TCP/IP system included:

                                           •     Workstation computers that had blank or easily guessed administrator
                                                 passwords. The administrator is the most trusted user on the system
                                                 with complete control over system activities. Given this level of

9
   We also identified 1,499 low-risk vulnerabilities. High-risk vulnerabilities are those that provide access to the computer, and possibly the network of
computers. Medium-risk vulnerabilities are those that provide access to sensitive network data that may lead to the exploitation of higher risk
vulnerabilities. Low-risk vulnerabilities are those that provide access to sensitive, but less significant network data.
10
   TCP/IP is a series of agreed upon formats for transmitting data—protocols—used on the Internet as the primary standard for the movement of data.
11
   An Operating System is a program on a network (or individual computer) that runs all the other programs in addition to maintaining system security.




USDA/OIG-Audit/33099-4-Ch                                                                                                                      Page 4
                                               access, an attacker could easily alter or destroy critical data stored on
                                               APHIS’ networks.

                                          •    Systems that had easily guessed user account names and passwords for
                                               transferring files and administering the system from remote locations.
                                               Hackers use system penetration software that runs through lists of
                                               commonly used account names and passwords (e.g., “1111,” “abcdef,”
                                               blank, etc.) to gain access to network systems. Once in, an attacker can
                                               infect crucial files with viruses, or change configuration settings to
                                               cause other damage.

                                          •    Users had stored identification and passwords for remote access on
                                               their computers so they could automatically dial into the network
                                               without going through the authentication process. This method of
                                               dialing in, however, also allows hackers to circumvent the network
                                               security.

                                          •    Software used to manage the network had been left in the
                                               manufacturer’s standard configuration. Since these settings are widely
                                               known, an attacker could use the program to obtain or change system
                                               information and gain information about open links to other systems.

                                     Some examples of vulnerabilities that posed serious access control weaknesses
                                     included:

                                          •    User account lockouts that expired after 30 minutes. A lockout time of
                                               30 minutes leaves systems highly susceptible to brute force attacks. In
                                               a brute force attack, a hacker will continuously enter different
                                               passwords in an attempt to access a system. To prevent this, accounts
                                               should remain locked out until they are reset by the Administrator.

                                          •    User accounts that were not locked until after five failed logon
                                               attempts. Departmental guidance12 requires a maximum setting of
                                               three failed logon attempts before locking the user account. If this
                                               setting is too long, an attacker has more opportunity to try different
                                               passwords in an attempt to gain access to a system.

                                          •    Passwords for 222 of 1,980 user accounts that were set to never expire.
                                               Departmental guidance13 requires that passwords for all systems,
                                               applications, or processes be changed every 60 days for general users.
                                               Passwords issued to system administrators, system managers, software

12
     USDA DM 3140-1.6, Appendix D, Amendment 6, Section 5.
13
     USDA OCIO Cyber Security Guidance Regarding C2 Controlled Access Protection, CS-013, page 11.




USDA/OIG-Audit/33099-4-Ch                                                                                       Page 5
                                             engineers, or those that are using dial-in access should be changed
                                             every 30-45 days.

                                        •    Remote access software that was set to automatic startup for three
                                             servers. This configuration sidesteps network security by allowing the
                                             server to be automatically started rather than being manually started
                                             with the required passwords. Thus, the network could be compromised
                                             from a remote location.

                                        •    Inactive accounts that had not been disabled. User accounts that
                                             become inactive, but are not disabled, provide opportunities for
                                             unauthorized users to gain access to the network.

                                   We also conducted a detailed assessment of APHIS’ telephone system to
                                   identify active modems on its network. Active modems provide a gateway into
                                   the network system by converting digital and analog signals for transmission
                                   between components. We identified 45 potential lines into APHIS’ network.
                                   APHIS officials stated that these lines were connected to facsimile machines.
                                   However, when we tested all 45 numbers, two of the numbers rang but did not
                                   answer. APHIS officials said that one facsimile machine did not accept
                                   incoming calls, and the other was not connected. However, an open telephone
                                   line is ripe to become a connected modem and a link into APHIS’ systems.
                                   Unsecured modems are also susceptible to war dialing—the common hacker
                                   practice of systematically calling telephone numbers to find an unsecured
                                   gateway into a network.

                                   Departmental regulations require agencies to evaluate security measures in
                                   place on network gateways14 and to assess risks and vulnerabilities each year.15
                                   However, at the time of our review, APHIS had no written policy and
                                   procedures to implement these requirements. Consequently, there had been no
                                   agency-wide monitoring of the gateways into APHIS’ network.

                                   The lack of monitoring IT security on an agency-wide basis creates a
                                   dangerous situation for APHIS’ IT structure. With no one ensuring that
                                   identified high- and medium-risk vulnerabilities are mitigated, APHIS
                                   continues to be susceptible to attack and is exposed to common hacker
                                   penetration techniques. Thus, sensitive information, critical systems, and
                                   overall functions are correspondingly endangered.

                                   DR 3140-00116 states that the ISSPM must be able to apply security
                                   throughout an agency and allows for APHIS’ ISSPM to work at the top level

14
   USDA DR 3140-001, Section 16, USDA Information System Security Policy, dated May 15, 1996.
15
   USDA DR. 3140-002, USDA Internet Security Policy, Section 7 (b)(1), dated March 7, 1995.
16
   USDA DR 3140-001 Section 10 (g)(8), USDA Information Systems Security Policy, dated May 15, 1996.




USDA/OIG-Audit/33099-4-Ch                                                                                   Page 6
                    of management, reporting directly to the Administrator. As it stands, APHIS’
                    ISSPM is located near the bottom of the agency’s management structure.
                    With three intervening layers of control (see exhibit A), the agency’s ISSPM
                    lacks the authority and independence to oversee IT security, and ensure that
                    departmental policies and procedures are effected.

                    We also noted that the ISSPM works in a branch of the ITD and reports to the
                    Chief Information Officer (CIO) who implements the agency’s IT activities
                    (see exhibit A). Consequently, there is a potential for a conflict of interest
                    within the CIO’s authority. That conflict involves the goal of the ISSPM (to
                    maintain IT security) and the goal of the ITD (to ensure systems run
                    efficiently). The conflict occurs because security measures slow down IT
                    efficiency. This potential for conflict is increased by the ISSPM’s lack of
                    independence from the IT functions. It also runs counter to departmental
                    regulations which focus on the ISSPM’s ability to report findings
                    independently. The second chart in exhibit A illustrates an independent IT
                    Security position.

Recommendation No. 1

                    Reposition the ISSPM to report directly to the APHIS Administrator.

                    Agency Response.

                    APHIS stated that the ISSPM function is appropriately placed under the
                    CIO’s area of responsibility. The Administrator has delegated authority to
                    the CIO to issue agency security policy. The CIO is a member of the APHIS
                    management team and has unrestricted access to senior agency officials.

                    OIG Position.

                    We disagree with APHIS’ proposed management decision. The ISSPM
                    should be in a position to independently report security weaknesses and
                    noncompliance with security requirements throughout APHIS, including
                    those related to the CIO and the Information Technology Department. The
                    ISSPM reporting directly to the CIO reduces the level of assurance that all
                    weaknesses will be properly reported to the appropriate level of management.

                    To reach management decision, APHIS needs to place the ISSPM in a
                    position to independently oversee and report on the agency’s compliance
                    with its IT security program.




USDA/OIG-Audit/33099-4-Ch                                                                  Page 7
Recommendation No. 2

                    Develop and implement agency-wide IT security monitoring procedures.

                    Agency Response

                    APHIS has implemented a monthly scanning process in accordance with
                    cyber security directives. APHIS will improve agency-wide IT security
                    monitoring procedures by September 30, 2004.

                    OIG Position.

                    We accept APHIS’ management decision for this recommendation.

Recommendation No. 3

                    Correct all high-and medium-risk vulnerabilities identified by our scans in
                    the TCP/IP Systems.

                    Agency Response.

                    APHIS has resolved all the vulnerabilities identified by OIG’s scans and
                    will develop a compliance review program for resolving vulnerabilities by
                    September 30, 2004.

                    OIG Position.

                    We accept APHIS’ management decision for this recommendation.

Recommendation No. 4

                    Ensure that corrective actions are taken on all the vulnerabilities identified in
                    APHIS’ network operating system.

                    Agency Response.

                    APHIS has corrected all vulnerabilities identified in APHIS’ network
                    operating system. In addition, the remote access mechanism was recently
                    replaced with a more secure solution.

                    OIG Position.

                    We accept APHIS’ management decision for this recommendation.




USDA/OIG-Audit/33099-4-Ch                                                                     Page 8
Recommendation No. 5

                    Develop formal policies and procedures on the use and annual review of
                    modems and remote access software that conforms to departmental guidance.

                    Agency Response.

                    APHIS will create formal policies and procedures in conjunction with a
                    compliance review program on the use and annual review of modems, and
                    remote access software, by September 30, 2004.

                    OIG Position.

                    We accept APHIS’ management decision for this recommendation.

Recommendation No. 6

                    Develop and implement policy and procedures that comply with departmental
                    regulations on periodic vulnerability scans of network resources.

                    Agency Response.

                    APHIS has adopted the policy and procedures in the recommendation.

                    OIG Position.

                    We accept APHIS’ management decision for this recommendation.




Finding 2           Centralized Reporting Procedures Were Inadequate

                    APHIS had inadequate procedures for handling, documenting, and reporting
                    security incidents. Agency officials informed us that their practice was to
                    handle security incidents at the lowest possible level (e.g., by a security
                    manager). We do not disagree with the policy of having security managers or
                    other security officers respond to security incidents. However, security
                    incidents must be documented and timely reported to a centralized authority,
                    such as the ISSPM. An agency must have formal written procedures about
                    relaying identified security violations to a central security management office
                    so that related incidents can be recognized, reported, and addressed before
                    they disrupt agency activities.




USDA/OIG-Audit/33099-4-Ch                                                                   Page 9
                                        APHIS policy17 requires that system administrators and/or Information
                                        Systems Security Officers (ISSO’s) review Internet logs and other audit trails
                                        at least every three days. System audit logs provide management with
                                        valuable information about activity on its computer systems, including
                                        reviews and analyses of management, operational, and technical controls.
                                        However, it does not have policies and procedures that outline the logs and
                                        reports to review, the appropriate actions to identify and correct violations,
                                        and the documentation to maintain.

                                        NIST SP 800-1418 recommends that all aspects of computer support and
                                        operations be documented to ensure continuity and consistency. NIST also
                                        recommends a periodic review of system-generated logs to detect security
                                        problems, including attempts to exceed access authority or gain system
                                        access during unusual hours. The Cyber Security Manual, “USDA Computer
                                        Incident Response Reporting Procedures,” establishes departmental policy
                                        and procedures for reporting IT security incidents.19 It requires all agencies
                                        to implement internal incident handling procedures that define how to report
                                        intrusions and attempted intrusions. The manual also specifies that these
                                        procedures should include a policy for reporting incidents through the chain
                                        of command and requires that all IT security incidents regardless of the
                                        source of notification or level of magnitude be reported to the ISSPM.

                                        With almost 9,000 employees, only one IT security incident was reported to
                                        APHIS’ ISSPM in fiscal year 2002—a stolen computer. Many of the
                                        manual’s examples of security incidents, though, are events that occur on a
                                        regular basis: loss of passwords, detection of computer viruses, termination
                                        of disgruntled employees, etc. Given the size of APHIS, and the recurrent
                                        nature of these events, we thought it unlikely that there had been only one
                                        incident during the entire year.

                                        To determine if officials throughout the agency were reporting IT security
                                        incidents as required, we employed a common hacker technique called social
                                        engineering and contacted 15 randomly selected employees via the telephone
                                        to ask for their user identifications and passwords. We were able to obtain
                                        the information from 10 employees, and one even provided us with the user
                                        identification and password needed to access the Department’s Federal
                                        Financial Information System.

                                        Employees, their supervisors, or the security manager for their program area,
                                        should have immediately contacted the ISSPM to report the incident.
                                        However, only two employees contacted their security managers. Instead of
17
     APHIS Directive 3140.3 (6) (i) Internet Administration, dated May 26, 2000.
18
     NIST SP 800-14, Sections 3.9 and 3.4.5, dated September 1996.
19
     USDA DM 3500-001 dated October 25, 2001.




USDA/OIG-Audit/33099-4-Ch                                                                                    Page 10
                    reporting the incident up the chain of command, the security managers just
                    changed their passwords in accordance with APHIS’ policy of handling
                    incidents at the lowest level. These security incidents should have been
                    reported to the ISSPM. Hackers typically work by probing constantly for
                    weakness throughout a system. To defend against these kinds of widespread
                    assaults, an effective security program must facilitate recognizing attacks on
                    its local IT systems for what they really could be, an effort to break through
                    its defenses.

                    Given procedures to alert the ISSPM to agency-wide security problems, a
                    security manager can apply the security program appropriately to protect
                    APHIS’ information systems (e.g., issue a security alert) before an attacker
                    finds a weak point (e.g., someone gives out a password over the phone).
                    Without procedures to inform the ISSPM of security incidents, APHIS’ IT
                    systems are susceptible to agency-wide attacks.

                    Agency officials stated that they were in the process of developing formal
                    procedures for reporting IT security incidents. We viewed the draft
                    procedures and concluded that they provided adequate direction for handling
                    IT security incidents except, crucially, they do not require that all security
                    incidents be reported to the ISSPM.

Recommendation No. 7

                    Formulate and implement procedures for reporting all security incidents to
                    the ISSPM.

                    Agency Response.

                    APHIS will finalize written procedures concerning the reporting of security-
                    related incidents by April 30, 2004. In addition, APHIS plans to update its
                    security training, to include the reporting requirements, by September 30,
                    2004

                    OIG Position.

                    We accept APHIS’ management decision for this recommendation.




USDA/OIG-Audit/33099-4-Ch                                                                Page 11
Recommendation No. 8

                    Establish and implement procedures for monitoring systems logs and
                    documenting actions taken.

                    Agency Response.

                    APHIS will develop procedures by April 30, 2004, requiring all Systems
                    Administrators to review system audit logs every three days. Documentation
                    of the reviews will be implemented by September 30, 2004.

                    OIG Position.

                    We accept APHIS’ management decision for this recommendation.




USDA/OIG-Audit/33099-4-Ch                                                             Page 12
Section 2 APHIS’ ISSP Did Not Comply With IT Security Requirements

                                     APHIS had not complied with numerous IT Security requirements for agency
                                     ISSPs. We attributed this to the lack of agency-wide requirements designed
                                     to ensure that the agency’s plans, policies, and procedures, met applicable IT
                                     security requirements. (See Finding No. 1 for our discussion regarding the
                                     ISSPM’s monitoring responsibilities.) As a result, APHIS’ IT resources were
                                     more at risk and less capable of recovery in the event of a disaster.

                                     We specifically determined that APHIS had not (1) conducted comprehensive
                                     risk assessments of critical systems, (2) identified sensitive data on its
                                     systems, (3) created a comprehensive contingency plan to ensure that it could
                                     recover in the event of a disaster or major disruption in service, (4) developed
                                     adequate security plans, (5) adequately configured its firewall system,
                                     (6) obtained the proper background investigations and assigned security
                                     levels commensurate with employees’ duties, and (7) provided adequate
                                     training to employees and contractors.




Finding 3                            Inadequate Precautions to Protect Agency Resources

                                     APHIS had not adequately planned for the continued operations of its IT
                                     systems. This occurred because the agency had no written procedures for
                                     assessing risk in its systems and for preparing contingency and security plans.
                                     Thus, the agency lacked a coherent security approach that assessed its
                                     systems, took reasonable steps to mitigate risks, or planned to recover quickly
                                     in case of disaster.

                                     Risk Assessment

                                     OMB Circular A-13020 states that for general support systems and major
                                     applications agencies must demonstrate specific methods used to ensure that
                                     risks and the potential for loss are understood and continually assessed, that
                                     steps are taken to maintain risk at an acceptable level, and that procedures are
                                     in place to ensure that controls are implemented effectively and remain
                                     effective over time. In addition, PDD 6321 requires each agency to identify
                                     critical infrastructure, the vulnerabilities that threaten the infrastructure, and
                                     to develop a remediation plan to correct those vulnerabilities. NIST22

20
   OMB Circular A-130, Section 8-Policy b (3)(b) iv-vi, dated November 30, 2000.
21
   PDD-63, dated May 22, 1998.
22
   NIST SP 800-30 dated October 2001 (January 2002 on website, http://csrc.nist.gov/publications/nistpubs/index.html).




USDA/OIG-Audit/33099-4-Ch                                                                                                Page 13
                                      guidance gives the first step to assessing risk for IT systems as defining the
                                      scope of the effort. Essentially, this step is an information gathering stage
                                      intended to delimit the operational environment. Collecting the necessary
                                      system related information includes detailing: a network diagram, the
                                      physical security environment (e.g., facility security), and the operational
                                      controls (e.g., backup procedures, system maintenance policies, etc.). An
                                      adequate risk assessment must also include a threat statement that lists the
                                      potential threat-sources for a given IT system (e.g., natural threats like
                                      earthquakes, human threats like malicious attacks, or environmental threats
                                      like power-failure), and a list identifying IT vulnerabilities that could be
                                      exploited by threat-sources. In addition, an adequate risk assessment should
                                      generate a list of controls that will mitigate the likelihood of a vulnerability
                                      being exploited, and a set of recommended controls and solutions to mitigate
                                      risk.

                                      Agency officials informed us that they had conducted risk assessments on
                                      mission critical applications using the APHIS Rapid Risk Assessment Tool.
                                      However, we concluded that the APHIS Risk Assessment was incomplete
                                      because it did not include necessary information such as a network diagram, a
                                      description of the physical security environment, an explanation of back-up
                                      procedures, and a system maintenance policy. It had also not identified
                                      system weaknesses and sources of potential threats. Specifically, APHIS’
                                      risk assessment did not specify:

                                                 a. system vulnerabilities that could be exploited,
                                                 b. threats that could exploit those vulnerabilities,
                                                 c. controls that protected IT weak points and reduced the impact of
                                                    adverse events, and
                                                 d. recommendations for alternative ways to mitigate identified risks.

                                      APHIS also had not identified sensitive data on its systems. Sensitive data is
                                      unclassified information that should not be disclosed to any individual
                                      without the need to know. This could include data on permits to import
                                      biohazardous materials and on inspection activities at airports, seaports, and
                                      border crossings. According to NIST 800-1223 APHIS is required to perform
                                      sensitivity assessments to identify the critical data processed on its systems.

                                      Contingency Plans

                                      APHIS did not have a comprehensive contingency plan to ensure recovery of
                                      critical systems in the event of a disaster or major disruption in service.
                                      Officials informed us that the agency had a Continuity of Operations Plan

23
     NIST SP 800-12 Chapter 8.4.1.1 Conducting a Sensitivity Assessment




USDA/OIG-Audit/33099-4-Ch                                                                                     Page 14
                                         (COOP) that was also used as a contingency plan. The plan listed APHIS’
                                         management team, program coordinators, and back-up personnel (as of
                                         May 9, 2002). It also delegated APHIS’ Administrator’s authority and gave a
                                         list of suggested actions for each COOP member. The COOP is a critical
                                         document to have in case of emergency, but it deals primarily with
                                         organizational planning and not information systems. Attached to APHIS’
                                         COOP is the APHIS Emergency Operation Centers and Continuity of
                                         Operation Plan Strategic Initiative dated May 31, 2002, which outlines how
                                         Emergency Operation Centers (IT systems) and COOP procedures
                                         (organizational structure) can be merged. This document, however, does not
                                         describe what is in place, but what should be in place.

                                         OMB Circular A-13025 requires agencies to establish a contingency plan,
                                         which allows them to function if automated support (IT systems) fails. It
                                         further states that managers should plan how they will perform their mission
                                         in the event of system loss or failure. NIST draft guidance26 states that
                                         contingency plans should focus on information systems. In particular, a
                                         contingency plan should address the details of the systems and the steps
                                         needed to restore them, as well as how to recover data from backup tapes.27

                                         Agency officials agreed that the COOP was inadequate as a contingency
                                         plan. They are currently addressing this and other IT issues. As it stands,
                                         APHIS cannot be assured that its network and operations can recover quickly
                                         and effectively to accomplish its mission in the event of an emergency.

                                         Security Plans

                                         APHIS’ security plans for three mission critical systems did not contain all
                                         the requirements of OMB Circular A-130 and NIST SP 800-18. APHIS
                                         officials were aware of the deficiencies from an OCIO review in fiscal year
                                         (FY) 2001 that identified the same issues.

                                         For calendar year 2002, OCIO waived the requirement for submission of
                                         security plans and encouraged agencies to correct deficiencies in their plans
                                         during this time period. Therefore, at the time of our review, the agency was
                                         working on correcting the deficiencies. Until the security plans are updated
                                         and properly certified, APHIS cannot be assured that information collected,
                                         processed, transmitted, stored, or disseminated in general support systems and
                                         major applications is secure.


25
     OMB Circular A-130, Appendix III, B (a) (2) (a) and B(b)(2)(d) dated November 30, 2000.
26
     NIST SP 800-34, Executive Summary, December 2001.
27
     We noted as well that APHIS has not designated an offsite facility for the storage of its backup tapes.




USDA/OIG-Audit/33099-4-Ch                                                                                      Page 15
                    We reviewed the security plans for three agency systems and determined that
                    they did not include the requirements; rules of behavior, training, personnel
                    controls, incidence response, continuity of support, technical security, and
                    system interconnection. The information provided in APHIS’ plans was
                    either absent, insufficiently documented, or too brief.

                    APHIS had not documented, for example, whether system users received
                    security training. There was no indication that individuals with security
                    responsibilities received sufficient training to perform their duties. In
                    general, personnel controls were not sufficiently documented and there were
                    no written procedures for requesting, establishing, issuing, maintaining, and
                    closing user accounts.

                    APHIS’ plans also did not include rules of behavior for individual users with
                    clearly delineated expectations and consequences of misbehavior although
                    such rules were a significant issue in OCIO’s review. The rules should—but
                    did not—cover dial in access, work from home, connection to the Internet,
                    use of copyrighted works, unofficial use of government equipment, and the
                    assignment and limitation of system privileges and individual accountability.

                    APHIS responded that the mission critical system security plans detailed the
                    rules of behavior. These plans, though, only include the following statement:
                    “Currently users are instructed on security measures during training. In the
                    future, these measures will be added to user documentation and in
                    memorandums to supervisors/managers for their awareness.” Clearly this
                    does not substitute for fully developed and documented rules of behavior
                    policy, which addresses security training.

Recommendation No. 9

                    Perform a risk-assessment that meets NIST guidelines.

                    Agency Response.

                    APHIS submitted a certification and accreditation timeline to the CIO,
                    covering all major applications and underlying general support systems in the
                    APHIS IT infrastructure. APHIS plans to complete the risk assessment by
                    September 30, 2004.

                    OIG Position.

                    We accept APHIS’ management decision for this recommendation.




USDA/OIG-Audit/33099-4-Ch                                                                Page 16
Recommendation No. 10

                    Develop a contingency plan based on the risk assessment and geared toward
                    the needs of the ISSP.

                    Agency Response.

                    APHIS submitted a certification and accreditation timeline to the CIO,
                    covering all major applications and underlying general support systems in the
                    APHIS IT infrastructure. APHIS plans to develop a contingency plan by
                    September 30, 2004.

                    OIG Position.

                    We accept APHIS’ management decision for this recommendation.

Recommendation No. 11

                    Ensure that security plans for mission critical systems meet regulatory
                    requirements.

                    Agency Response.

                    APHIS submitted a certification and accreditation timeline to the CIO, which
                    stated that security plans for mission critical systems would meet regulatory
                    requirements by September 30, 2004.

                    OIG Position.

                    We accept APHIS’ management decision for this recommendation.

Recommendation No. 12

                    Establish policy and procedures to ensure that all applicable requirements for
                    performing risk assessments, and developing contingency and security plans,
                    are met.

                    Agency Response.

                    APHIS submitted a certification and accreditation timeline to the CIO,
                    covering all major applications and underlying general support systems in the
                    APHIS IT infrastructure, including performing risk assessments, and
                    developing contingency and security plans.




USDA/OIG-Audit/33099-4-Ch                                                                 Page 17
                                       OIG Position.

                                       We accept APHIS’ management decision to this recommendation.




Finding 4                              Inadequately Configured Systems and Firewalls

                                       APHIS did not configure its security systems to full advantage. Both its
                                       configuration management program and its firewalls were not set to provide
                                       maximum protection. We attributed this to a lack of formal policy and
                                       procedures that describe the proper configuration of systems and firewalls.

                                       Configuration Management

                                       NIST28 guidelines recommend that agencies develop a configuration
                                       management program, which ensures that systems are routinely updated with
                                       recent security patches and other software updates.29 APHIS had not
                                       developed such a program. As a result, servers and workstations were not
                                       protected from the latest threats.

                                       Software companies release new patches daily to address vulnerabilities or
                                       weaknesses in software that can be exploited by malicious users. The failure to
                                       keep operating system and application software updated is a common mistake
                                       made by IT professionals. In addition, a common misperception among some
                                       system administrators is that a secure firewall reduces the need for timely
                                       patching. While APHIS’ systems are behind firewalls, these firewalls should
                                       not be the only defense against commonly known vulnerabilities. (A firewall
                                       is a system designed to prevent unauthorized access into or from a network.)
                                       NIST guidance states that the implementation of a firewall should not preclude
                                       an agency from patching its system.

                                       We attributed 183 of the 266 high-risk vulnerabilities disclosed by our scans to
                                       APHIS not applying available patches to its systems. During our review,
                                       APHIS officials completed the installation of appropriate patches to address all
                                       high-risk vulnerabilities. While this corrects existing vulnerabilities, it does
                                       not ensure that patches will be applied in the future to correct additional
                                       vulnerabilities. APHIS needs a configuration management program to ensure
                                       that patches are applied as they become available.



28
  NIST SP 800-40 “Procedures for Handling Security Patches,” dated August 2002.
29
  Patches are pieces of program that are intended to fit into previously released software in order to protect (patch) newly identified vulnerabilities.
Software companies release patches as well as more comprehensive software updates daily.




USDA/OIG-Audit/33099-4-Ch                                                                                                                          Page 18
                                       Firewall Configuration

                                       APHIS had not maintained its firewall in accordance with NIST guidelines. 30
                                       We identified two critical rules that were missing from the agency’s firewall
                                       configuration. APHIS had also not monitored its rules on at least a quarterly
                                       basis and ensured that they were maintained at a manageable number as
                                       required by NIST guidelines. Our analysis of APHIS’ firewall rules also
                                       revealed that several were either no longer needed, were redundant, or were
                                       not configured in the best interest of network security. For example, we
                                       found several rules with notes attached to them stating “will not need.” We
                                       question why these rules still exist.

                                       Some redundant rules included one that allowed Internet traffic through the
                                       firewall and into the agency’s Demilitarized Zone, but not farther. Another
                                       rule allowed email through the firewall to a list server, while a third rule
                                       allowed Internet traffic through to a web server. Redundant rules can lead to
                                       system degradation and can accidentally introduce holes in the firewall.
                                       Maintaining rules that are no longer needed may cause other rules to work
                                       incorrectly if accidentally or intentionally activated.

Recommendation No. 13

                                       Develop and implement configuration management policies and procedures,
                                       which require the application of all recent security patches and software
                                       updates.

                                       Agency Response.

                                       APHIS intends to implement Patchlink patch management software. In
                                       addition, APHIS’ compliance review program will assess compliance with
                                       configuration management procedures.

                                       OIG Position.

                                       We disagree with APHIS’ proposed management decision. In order to reach
                                       management decision, APHIS needs to develop and implement configuration
                                       management policies and procedures, which will be used with the Patchlink
                                       application to apply security patches and software updates.




30
     NIST SP 800-41, “Guidelines on Firewalls and Firewall Policy,” dated January 2002, page 47/74.




USDA/OIG-Audit/33099-4-Ch                                                                                   Page 19
Recommendation No. 14

                                     Develop and implement policies and procedures for conducting quarterly
                                     reviews of the firewall configuration that are consistent with NIST guidance.

                                     Agency Response.

                                     The CIO will create procedures requiring quarterly reviews. In addition, the
                                     compliance review program will require evaluation of compliance efforts.
                                     Completion is expected by September 30, 2004.

                                     OIG Position.

                                     We accept APHIS’ management decision for this recommendation.




Finding 5                            Insufficient Management Control Over Personnel Access to IT
                                     Systems

                                     APHIS did not ensure that its employees were properly investigated for
                                     access to its systems, or trained to use those systems securely. In addition, it
                                     did not have control over employees’ access to its systems. We also found
                                     APHIS was not matching user accounts with employee records. We
                                     attributed this to the agency’s lack of formal requirements in these areas.

                                     Background Investigations

                                     APHIS had not performed required background investigations of critical IT
                                     staff. This occurred because the agency did not have requirements for
                                     higher-level security clearances written into IT job descriptions.
                                     Consequently, APHIS had not assigned security clearances commensurate
                                     with employee duties and access to confidential information.

                                     Federal Law31 and OMB Circular A-130 require that persons who are
                                     authorized to bypass significant technical and operational security controls
                                     have periodic background investigations commensurate with the risk and
                                     magnitude of harm they could cause. DM 3140-1.132 also requires personnel,
                                     including contractors, working in the automated data processing environment
                                     to have appropriate security clearances.


31
     Title 5, CFR731.106, dated January 1, 2003.
32
     USDA DM 3140-1.1 (6)(a)(6), dated March 5, 1992.




USDA/OIG-Audit/33099-4-Ch                                                                                   Page 20
                                     APHIS officials had identified 77 employees who should receive a higher
                                     clearance and corresponding background investigation. However, those
                                     employees only had a basic level security clearance. At the time of our
                                     review, APHIS officials were in the process of determining the appropriate
                                     security clearance levels for all staff. One official said that network and
                                     systems administrators would receive higher-level security clearances. The
                                     CIO, ISSPM, Deputy ISSPM, and two ITD managers would be investigated
                                     for top-secret security level clearances.

                                     Security Training

                                     APHIS had not ensured that employees and contractors had received annual
                                     security awareness training before allowing them to access its systems. This
                                     occurred because the agency had not developed and implemented procedures
                                     requiring such training.

                                     The Computer Security Act requires agencies to provide periodic mandatory
                                     training to all employees involved in the management or use of Federal
                                     computer systems.33 OMB Circular A-130 requires that all individuals be
                                     appropriately trained to fulfill their security responsibilities before allowing
                                     them access to agency systems. DR 3140-00134 sets two of USDA’s ISSP
                                     goals as providing annual IT security awareness training and ensuring that
                                     employees and contractors have sufficient guidance to discharge their
                                     security responsibilities.

                                     We found that no formal security awareness training had been provided since
                                     April 2001. An agency official stated that he verbally provided computer
                                     security training to newly hired employees, but had not documented the
                                     dates, nature of training, and employees’ names.

                                     APHIS officials were in the process of initiating a web-based training
                                     program for general security awareness and some types of specialized
                                     training for those employees with significant security responsibilities. This
                                     new training was originally scheduled for completion in November 2002.
                                     However at the time of our review, APHIS had not initiated the program.

                                     Employee Access

                                     APHIS could not provide adequate assurance that former employees and
                                     contractors no longer had access to agency systems. We attributed this to a
                                     lack of procedures to remove system users when they left the agency, and to a
                                     lack of an agency-wide verification process. In addition, APHIS did not
33
     PL 100-235, The Computer Security Act of 1987 Section 2 (b) (4).
34
     USDA DR 3140-001 (12), USDA Information System Security Policy, dated May 15, 1996.




USDA/OIG-Audit/33099-4-Ch                                                                                   Page 21
                                      maintain users’ identifications in one central file. Instead, that information
                                      was maintained in 43 separate files.

                                      OMB Circular A-130, Appendix III, “Security of Federal Automated
                                      Information Resources,” requires accountability of logical access through
                                      identification and authentication of users of the system. NIST35 guidance
                                      also requires auditing and periodically verifying the legitimacy of current
                                      accounts and access authorizations.

                                      To determine if APHIS was complying with these requirements, we
                                      requested a current list of employees’ names and user identifications for its
                                      General Support systems. APHIS provided us with 7,022 user identifications
                                      (from the 43 files). Based on compatable files, we combined 4,656 of the
                                      user identifications and compared them to a list of current APHIS employees,
                                      which APHIS queried from National Finance Center records.

                                      Our analysis disclosed 1,253 user identifications (about 18 percent) that were
                                      not on the current employee list. In addition, 651 of the 1,253 user
                                      identifications were not identified by first and last name of the employee.
                                      Thus, there was no way for us to determine if they were duplicates (one
                                      employee with two accounts), belonged to terminated employees, or were
                                      used by unauthorized individuals with access to APHIS’ systems.

                                      From the user identifications that remained (602), 12 belonged to APHIS
                                      contractors. We also compared a sample selected from the first three pages
                                      (121 user identifications) against a hard-copy employee list provided by
                                      APHIS. Although agency officials said that the electronic list from NFC and
                                      the hard copy should be identical, we ascertained that there were additional
                                      employee names on the manual list.             We identified an additional
                                      54 employees or contractors from the manual lists. After accounting for
                                      these employees, there were still user identifications assigned to people that
                                      were not identified on the employee lists provided by APHIS.

                                      Since APHIS has user identifications unaccounted for, there is a potential for
                                      unauthorized user access to its systems. To determine how these user
                                      identifications came to be on APHIS’ system, we reviewed controls over
                                      issuing and removing user identifications.

                                      APHIS’ customer support employees informed us that they do not require
                                      employees to complete request forms for initial access to APHIS’ system and
                                      that they do not document changes to employees’ status. Customer support
                                      administrators are not always informed when an employee’s access should be

35
     NIST SP-800-12 (10.2) p112 Introduction to Computer Security




USDA/OIG-Audit/33099-4-Ch                                                                                   Page 22
                                       deleted. In general, employees did not know whom they should notify to
                                       delete an employee’s access, and who should do the notification.

                                       APHIS Directive 3140.536 charges the Deputy Administrators/Directors of
                                       Program Units and Heads of Major Business Offices with the responsibility to
                                       ensure that controls are established and maintained to modify/revoke information
                                       access privileges for employees transferring to a new position or leaving the
                                       agency entirely. However, these individuals had not established controls.

                                       A lack of access controls, including access removal, unnecessarily exposes
                                       APHIS to system attack. Former employees pose a particular threat to IT
                                       security because they may feel privileged to access by virtue of the fact that they
                                       had prior access. In addition, terminated employees pose a more serious security
                                       concern.

Recommendation No. 15

                                       Develop and implement procedures to ensure that background investigations are
                                       written into the job descriptions of IT staff identified as warranting higher
                                       security clearances.

                                       Agency Response.

                                       APHIS created a security clearance directive, which addresses background
                                       investigations and security clearances. The directive will be issued and
                                       effective by April 30, 2004.

                                       OIG Position.

                                       We accept APHIS’ management decision for this recommendation.

Recommendation No. 16

                                       Develop and implement procedures to provide annual security awareness
                                       training to employees and contractors.

                                       Agency Response.

                                       APHIS will develop a comprehensive training package and complete a pilot
                                       of the new program by September 30, 2004.




36
     APHIS Directive 3140.5 (5)(b)(8), APHIS ISS Roles and Responsibilities, dated May 26, 2000.




USDA/OIG-Audit/33099-4-Ch                                                                                        Page 23
                    OIG Position.

                    We accept APHIS’ management decision for this recommendation.

Recommendation No. 17

                    Develop and implement procedures to reconcile authorized system users to
                    APHIS employees and contractors agency-wide on an annual basis.

                    Agency Response.

                    APHIS’ compliance review program will require the annual reconciliation of
                    authorized users to APHIS employees and contractors. This will be
                    completed by September 30, 2004.

                    OIG Position.

                    We accept APHIS’ management decision for this recommendation.

Recommendation No. 18

                    Develop and implement procedures to document changes in employees’
                    status, complete access request forms, and to notify the appropriate officials
                    to delete employee access when necessary.

                    Agency Response.

                    The CIO will coordinate the implementation of this recommendation with
                    APHIS’ Human Resources, Technology Resource Management, Customer
                    Service, and program officials. The new compliance review program will
                    incorporate this requirement and be completed by September 30, 2004.

                    OIG Position.

                    We accept APHIS’ management decision for this recommendation.




USDA/OIG-Audit/33099-4-Ch                                                                 Page 24
Scope and Methodology
                                     Our audit was performed as part of a nationwide audit of selected USDA
                                     agencies’ computer systems. We reviewed general system controls to ensure
                                     the integrity of information security over the network at APHIS, and in place
                                     over computer operations in the agency as a whole.

                                     We conducted our audit from October 2002 through February 2003, in
                                     accordance with Government Auditing Standards.

                                     To accomplish our objectives, we performed the following audit procedures:

                                                Reviewed agency, departmental, and other Federally mandated
                                                information technology security policies and procedures.

                                                Interviewed responsible APHIS officials managing the computer
                                                systems.

                                                Conducted scans on APHIS’ networks using operating system
                                                vulnerability software.

                                                Analyzed records and controls established to ensure the integrity and
                                                security of APHIS’ computer systems.

                                                Observed the physical controls over computer resources.

                                     We assessed selected APHIS networks, including APHIS’ LAN in Riverdale,
                                     Maryland and Ft. Collins, Colorado. We chose the Riverdale location because
                                     it is APHIS’ IT Headquarters and Fort Collins because they maintained the
                                     computer applications we intended to review. We used commercially available
                                     software scanning products that:

                                     •    Identified over 1,100 vulnerabilities associated with various operating
                                          systems that use Transmission Control Protocol/Internet Protocol
                                          (TCP/IP),37

                                     •    Tested system policy settings in networks, and




37
  TCP/IP is a series of protocols originally developed for use by the US Military and now used on the Internet as the primary standard for the movement
of data on multiple, diverse platforms.




USDA/OIG-Audit/33099-4-Ch                                                                                                                  Page 25
                    •   Searched for modems within a set of telephone numbers to identify
                        potentially unsecured carrier lines.

                    We assessed server and workstation security patches and updates to
                    determine if all resources were routinely updated with recent security patches
                    and other software updates as required by NIST. We also assessed firewall
                    settings to determine if agency firewall rules were consistent with NIST
                    guidance.

                    We also reviewed the change control process and procedures for two of
                    APHIS’ twenty-one mission critical computer applications. We selected the
                    applications primarily due to their material relationship to the financial
                    statements, and the high level of risk for information confidentiality. We also
                    tested application controls for one system.




USDA/OIG-Audit/33099-4-Ch                                                                 Page 26
Exhibit A – Current and Suggested ISSPM Placement in Management Structure
                    Current APHIS ISSPM Position within APHIS Management Structure

                                                                                  APHIS



                                                                               Administrator


              Civil Rights                            Animal Care                                    International Services
              Enforcement &
              Compliance Staff               Plant Protection& Quarantine                             Veterinary Services

                                                    Wildlife Services                          Biotechnology Regulatory Services

                                               Legislative & Public Affairs                     Policy & Program Development

                                                MRP Business Services


                Administrative Services                        Financial Mgmt Division

                Resource Mgmt & Systems Evaluation Staff       Investigative & Enforcement Services

                Human Resources Division                       Employee Services Division

                Emergency Planning & Response Division         Information Technology Division - CIO


  Application Information Mgmt Branch      Customer Service Branch                     Forecasting & Planning Services Branch      Technology Resouce Mgmt Branch


        Forms, Issuances & Records Mgmt          Headquarters Region                            IT Security                             Telecommunications Team
                                                 Desktop Mgmt Support Team                      Liaison Group                           Systems Admin Team East
                                                 MRPBS Support Team                                                                     Systems Admin Team West
                                                 Eastern Region
                                                 Western Region
                                                 Minneapolis Support Team
                                                 APHIS Technical Assistance Center



              Recommended APHIS ISSPM Position within APHIS Management Structure

                                                                              Administrator
                          Civil Rights                                                                                              IT Security
                         Enforcement &                      Animal Care                        International Services
                                                                                                                                      ISSPM
                        Compliance Staff

                                                          Plant Protection                      Veterinary Services
                                                           & Quarantine

                                                         Wildlife Services                       Biotechnology
                                                                                               Regulatory Services

                                                   Legislative & Public Affairs                  Policy & Program
                                                                                                   Development

                                                     MRP Business Services




USDA/OIG-Audit/33099-4-Ch                                                                                                                                   Page 27
Exhibit B –APHIS’ Response To The Draft Report




USDA/OIG-Audit/33099-4-Ch                        Page 28
USDA/OIG-Audit/33099-4-Ch   Page 29
USDA/OIG-Audit/33099-4-Ch   Page 30
USDA/OIG-Audit/33099-4-Ch   Page 31
USDA/OIG-Audit/33099-4-Ch   Page 32
Informational copies of this report have been distributed to:


Agency Liaison Officer, APHIS                                   9
Office of the Chief Financial Officer
       Director, Planning and Accountability Division           1
General Accounting Office                                       1
Office of Management and Budget                                 1
